U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL




AUDIT OF SUBSIDIZED ANCILLARY SERVICES

AT THE NEVADA TEST SITE




The Office of Inspector General wants to make the distribution of its reports
as customer friendly and cost effective as possible. Therefore, this report
will be available electronically through the Internet five to seven days
after publication at the following alternative addresses:

Department of Energy Headquarters Gopher
gopher.hr.doe.gov

Department of Energy Headquarters Anonymous FTP
vm1.hqadmin.doe.gov

U. S. Department of Energy Human Resources and Administration
Home Page
http://www.hr.doe.gov/refshelf.html

Your comments would be appreciated and can be provided on the Customer
Response Form attached to the report.



This report can be obtained from the
U.S. Department of Energy
Office of Scientific and Technical Information
P.O. Box 62
Oak Ridge, Tennessee 37831




Report Number:   WR-B-95-08          Western Regional Audit Office
Date of Issue:   September 8, 1995   Albuquerque, New Mexico 87185

AUDIT OF SUBSIDIZED ANCILLARY SERVICES
AT THE NEVADA TEST SITE




TABLE OF CONTENTS
                                                                 Page

                   SUMMARY ........................................     1

PART I    -   APPROACH AND OVERVIEW ..........................     3

              Introduction ...................................     3

              Scope and Methodology ..........................     3

              Background .....................................     4

              Observations and Conclusions ...................     4

PART II   -   FINDING AND RECOMMENDATIONS ....................     6

                 Subsidized Ancillary Services at the
              Nevada Test Site ...............................     6

PART III -    MANAGEMENT AND AUDITOR COMMENTS ................    12
U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
OFFICE OF AUDIT SERVICES

AUDIT OF SUBSIDIZED ANCILLARY SERVICES
AT THE NEVADA TEST SITE

Audit Report Number:   WR-B-95-08             September 8, 1995

SUMMARY

        The Nevada Test Site became the nation's continental nuclear weapons
test site in the early 1950s. During the first days of the nuclear test
program, attracting the skilled labor force necessary to conduct the tests
was difficult. The labor pool in Las Vegas was insufficient and workers had
to be attracted from other locations. Additionally, an adequate amount of
housing was available in Las Vegas. Therefore, the Department established
subsidized housing, food service, and transportation to entice and maintain a
large, skilled workforce.

     Since the mid-1980s, however, the Cold War ended, a moratorium on
nuclear testing was put into effect, test site employment declined, and the
test site's mission changed significantly. The purpose of the audit was to
determine whether subsidies for the housing, food, and busing services were
still necessary or reasonable.

     The Department and its contractors have participated in at least six
reviews since 1991 encompassing aspects of subsidies at the test site.
Several of these reviews resulted in reports recommending reductions to the
housing, food, and bus services. A strategic planning report completed in
November 1994, for example, recommended closing certain food service
facilities, increasing housing rates to fair market value, and studying a bus
depot system. Other reports echoed the same themes. The Department should
be credited for recognizing that actions should be taken to reduce subsidy
costs. Moreover, the Acting Manager, Nevada Operations Office, has been
proactive in reducing the busing subsidy by decreasing the number of buses
and bus routes. The Acting Manager has also been fully supportive of the
effort    to further reduce subsidies. We appreciate these efforts.

        Our audit showed, however, that additional opportunities existed to
reduce costly subsidies for services that were not used extensively, that may
no longer be needed, and that could be more fully supported by the users.
The decline of a nuclear test program, reduced budgets, and a shrinking
workforce have brought into question the need to heavily subsidize services
that no longer directly support a national security mission. Thus, we
recommended that the Manager, DOE Nevada Operations Office, take steps to
further reduce subsidies, including closing housing facilities or operating
them on a break-even basis; operating the food services on a break-even
basis; and, increasing the efficiency of the bus service. By implementing
these recommendations, the Department could save $10 million per year.

        Management concurred with the spirit and intent of the recommendations
and agreed to target full cost recovery for ancillary services. Management
did not agree, however, with our presentation of the facts or the estimated
annual savings. See Part III for management and auditor comments.
                                   OFFICE OF INSPECTOR GENERAL


PART I

APPROACH AND OVERVIEW

INTRODUCTION

        During the Cold War, the Department developed and maintained an
extensive infrastructure at the Nevada Test Site to facilitate the nuclear
weapons test program. Subsidized housing service, food service, and busing
service were an integral part of this infrastructure. The Department
provided these subsidized services to attract and maintain a large force of
skilled workers necessary to conduct nuclear tests. However, the Cold War
has ended, a Presidential Directive in October 1992 placed a moratorium on
nuclear testing, and test site employment is declining. Therefore, the audit
assessed whether the subsidies for the housing, food, and busing services
were necessary or reasonable.

SCOPE AND METHODOLOGY

        The audit was conducted from January 1995 through April 1995, at the
Nevada Operations Office and at the Nevada Test Site, located about 65 miles
northwest of Las Vegas. Meetings were held with program officials from the
Department contractors involved with the operation of the subsidized
services.

         To accomplish the audit objective, we:

     o   reviewed contractual information;

     o   reviewed union documentation;

     o   reviewed financial data for Fiscal Years 1991-1994;

     o   analyzed pricing and cost data for the three services;

     o analyzed usage statistics from January 1995 for the three
services;

     o   interviewed various Department and contractor personnel;        and,

     o reviewed prior reports of other groups on the management          of
the program.

        The audit was performed according to generally accepted Government
auditing standards for performance audits and included tests of internal
controls and compliance with laws and regulations to the extent necessary to
satisfy audit objectives. We limited the review of internal controls because
the audit focused on the need and reasonableness of a specific program.
Because the review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit.
We did not rely extensively on computer-processed data and, therefore, did
not fully examine the reliability of that data. On March 7 and May 30, 1995,
we met with the Acting Manager, Nevada Operations Office, to discuss the
audit. An exit conference was held on August 10, 1995.

BACKGROUND

        The Nevada Test Site became the nation's continental nuclear weapons
test site on January 11, 1951. During the early days of the nuclear test
program, it was difficult to attract the skilled labor necessary to conduct
the tests. The labor pool in Las Vegas was insufficient and labor had to be
attracted from other locations. Additionally, an adequate amount of housing
was available in Las Vegas. Therefore, the Department established subsidized
housing, food service, and transportation to entice and maintain a large
skilled workforce.

        In addition, the Department also paid a daily allowance for "remote
area pay" to test site employees. These payments were either $5 or $7.50 per
day depending on where employees were stationed at the test site. From FY
1991 through FY 1994, total costs to the Department for remote area pay was
about          $21 million. This was in addition to the costs for the
subsidized services.

        Nuclear testing continued through September 1992. A Presidential
Decision Directive issued in that year stopped the testing but required the
Department to conduct an experimental program and maintain a readiness
posture, including a cadre of skilled workers, to resume nuclear testing
within six months through Fiscal Year 1995. The directive further required
that, beginning with Fiscal Year 1996, the Department maintain a 2- to 3-year
readiness posture.

OBSERVATIONS AND CONCLUSIONS

     Since 1991, the Department and its contractors have participated in at
least six reviews encompassing aspects of subsidies at the test site.
Several of these reviews resulted in reports recommending reductions to the
housing, food, and bus services. A strategic planning report completed in
November 1994, for example, recommended closing certain food service
facilities, increasing housing rates to fair market value, and studying a bus
depot system. Other reports echoed the same themes.

        The existence of these reports and their recommendations demonstrate
the Department was aware of the costly nature of the subsidies and the need
to consider alternatives. In our March 7 meeting, in fact, the Acting
Manager referred to the prior studies and expressed his desire to address the
issues. The Department should be credited for recognizing that actions
should be taken to reduce subsidy costs. Moreover, the Department has
reduced the busing subsidy by decreasing the number of buses and bus routes.
This action represents a positive step.

        More opportunities to cut costs exist, however. Our audit showed that
even after the moratorium on testing was put into place, the Department
continued to pay costly subsidies for services that were not used
extensively, that may no longer be needed, and that could be more fully
supported by the users. The decline of a test program, reduced budgets, and
a shrinking workforce have brought into question the need to heavily
subsidize services that no longer directly support a national security
mission. Thus, we recommended that the Manager, DOE Nevada Operations
Office, take additional steps to reduce subsidies, including closing housing
facilities or operating them on a break-even basis; operating the food
services on a break-even basis; and, further increasing the efficiency of the
bus service. By implementing these recommendations, the Department could
save $10 million per year.

        Continuing to pay unreasonable subsidies is, in our opinion, a
material internal control weakness that the Department should consider when
preparing the yearend assurance memorandum on internal controls.


PART II

FINDING AND RECOMMENDATIONS

Subsidized Ancillary Services at the Nevada Test Site

FINDING

        The National Performance Review recommended that federal agencies "cut
back to basics" and not subsidize services that could be paid for by users.
However, the Department continued to pay high subsidies for services that are
not used extensively, that may no longer be needed, that could be more fully
supported by the users, or that could be operated more efficiently. The
Department has not seriously addressed the costs of these subsidies because
of its interpretation of union contracts and continued adherence to over 30
years of past practices. Continuing these subsidies has cost the Department
about $31 million since the testing moratorium began at the end of Fiscal
Year 1992 and will continue to cost about $14 million per year.

RECOMMENDATIONS

        We recommend that the Manager, DOE Nevada Operations Office, improve
upon past practices by:

        1. closing housing facilities at the Nevada Test Site or
only maintaining a housing operation that is self-supporting and covers all
costs of operating the facilities;

          2.   operating the food services on a break-even basis;

          3. establishing a system-wide minimum occupancy level for
           bus services;

     4. combining bus routes and stops to increase existing
occupancy;

        5. eliminating buses from the contract to maintain the
established minimum occupancy level; and,

        6. requiring the Chief Financial Officer to validate that
the housing and food services are operating on a break-even or self-
supporting basis.

MANAGEMENT REACTION
     Management agreed with the spirit and intent of the recommendations and
is working to implement subsidies costs savings, but did not agree with the
portrayal of the facts and the potential savings. Detailed management and
auditor comments are provided in Part III of this report.

DETAILS OF FINDING

        The National Performance Review, completed in 1993, recommended that
the Department of Energy redirect the mission of its nuclear testing
facilities to meet post-Cold War national priorities. The Review also
recommended that all federal agencies "cut back to basics" by eliminating
spending on programs that are no longer needed and that serve special, not
national, interests. Finally, the Review stated that the taxpayers should
not be called upon to subsidize services that could be paid for more fully by
users. The Department's strategic plan echoes a similar message by urging
that its limited resources not be used to maintain past practices.

SUBSIDIZED ANCILLARY SERVICES
        Our audit showed that the Department was maintaining past practices by
continuing to subsidize services that are not used extensively and may no
longer be needed, that could be more fully supported by the users of those
services, or that could be operated more efficiently. As the following table
illustrates, for the three services reviewed, the Department has continued to
pay the difference between the costs incurred and the revenues generated,
even though the test site's mission--nuclear testing--has been curtailed.
Subsidized Services
FYs 1991 - 1994
                                         (in Millions)
Amount
Service                Costs           Revenues
        Subsidized

Housing                         $ 7.4              $ 3.1                   $ 4.3

Food                    33.6                 5.3                    28.3

Busing                  38.9                 3.4                    35.5

Totals                  $79.9              $11.8                   $68.1
                     (((((              (((((              (((((

        From FY 1991 through FY 1994, the Department spent $68 million to
subsidize these services, including about $31 million since the testing
moratorium began.

Housing Services

        From FY 1991 through FY 1994, the Department spent about $4.3 million
to subsidize housing services. Our audit showed, however, that this
subsidized housing is not being used extensively. The moratorium on nuclear
testing has reduced the number of employees as well as their use of housing.
The workforce at the test site, for example, has declined from 4,600 in FY
1991 to 3,100 in FY 1994. Of this reduced workforce, only about 14 percent
(423/3100) used housing services during September 1994. Additionally,
according to housing records, occupancy has dropped from an average of 46
percent in FY 1994 to about 36 percent in the first quarter of FY 1995. The
moratorium on testing and the subsequent reduction in the number of employees
combined with such low usage suggests that subsidized housing could be
reduced and may not even be necessary.

        In addition, we found that housing was no longer used as originally
intended. When the Department was conducting nuclear tests, it provided
employees with temporary quarters in order to meet work-related requirements.
Thus, housing directly supported nuclear testing. The Department did not
intend to provide workers with housing on a long-term basis or to provide
housing merely for the convenience of employees. Our audit indicated,
however, that the majority of occupants using the facilities rented them on a
permanent basis. One day during the month of January, for example, out of
the 494 occupants, 311 had rented their rooms on a permanent basis. Since
nuclear testing was no longer occurring, there were no work-related
requirements necessitating that employees spend the night or rent the rooms
for indefinite periods. This situation led us to conclude that employees
used these facilities for convenience and not for work-related requirements.

        Even if housing were necessary to meet work requirements for nuclear
testing, the cost of these services was not fully supported by the users.
The rates charged to the users, for example, were unreasonably low. The
daily rates ranged from $.75 a bed (two beds per room) to $10.00 for a
private room. A majority of the beds (603 out of 1,074) rented for $.75 per
night. The audit showed that these low rates did not cover the cost of
operations. In FY 1994, for instance, the costs associated with housing
services totaled about $1.6 million while the revenues generated totaled
about $560,000. Thus, the Department had to subsidize housing services about
$1 million in FY 1994.

        In addition to the normal operating costs, several facilities are
currently being remodeled at a cost of $370,000. These renovations are coming
at a time when management is planning further reductions in the personnel who
would use the housing and when the need for subsidized housing is not clearly
essential to the test site's mission. The costs of these renovations are in
addition to the amount the Department already subsidizes.

Food Services

        Although the Department subsidized food services at the test site at a
high cost ($28.3 million FYs 1991 through 1994), other Department sites
operated their food services at a significantly lower cost. In FY 1994, for
example, Rocky Flats Field Office (Rocky Flats) subsidized a subcontractor
about $1.5 million to provide food service while the subcontractor at
Lawrence Livermore National Laboratory (Livermore) operated the food service
on a break-even basis. During the same time period, in contrast, the
Department paid $6 million to subsidize the food service at the test site.
While the test site is the most remote location of the three, workers at all
three locations face practical limitations in traveling offsite for meals.

        One reason for the Department's high subsidy was that selling prices
of the food at the test site were much lower than those at Rocky Flats and
Livermore. For example, lunch at the test site consisting of cheeseburger,
fries, and iced tea cost $.90 compared to the costs of $2.40 and $3.55 for
the same lunch at Rocky Flats and Livermore, respectively. While the selling
prices of the food at the test site have remained low, the costs of running
food service operations have increased. These low prices, in fact, did not
cover the cost of the food. In FY 1994, for instance, the $961,000 generated
by food sales did not amount to the $1.6 million spent on food supplies. The
Department's subsidy, therefore, had to make up the difference between the
revenues generated and the entire cost of the food services.

        In addition, those costs which were identified as the subsidy amounts
did not include other costs associated with operating the facilities, such as
site maintenance. In FY 1994, for example, the cost of site maintenance for
both food and housing services amounted to approximately $700,000. Beginning
in FY 1995, these services will be responsible not only for these costs but
for the cost of fire protection and utilities as well.

Busing Service

        From FY 1991 through FY 1994, the Department spent about $35.5 million
to provide bus transportation used by less than half the test site workers.
On average, the bus records showed that approximately 44 percent (1350/3100)
of the test site workforce used the bus service. The remaining 56 percent
used either their private automobiles or government vehicles. Despite this
low use, however, the Department continued to subsidize the bus service that
previous reports described as inefficient.

        Prior reports by the Department determined that the bus system could
be operated more efficiently and recommended establishing a central bus depot
in order to consolidate pick-up points. These reports showed that such a
consolidation would reduce costs and increase operating efficiencies. The
Department, however, did not implement this recommendation and has continued
to subsidize an extensive and underutilized bus transportation service.
        At the time of our audit, the bus service used 62 buses to service 62
routes with pick-up points throughout the metropolitan area and surrounding
communities. Our analysis showed that the bus service provided multiple and
overlapping pick-up points and provided service as far south as Boulder City.
One intersection in Las Vegas, for instance, was serviced by four buses which
left for the same general destination within one hour (5:00, 5:13, 5:15 and
5:52 AM). The audit also showed that buses typically had low occupancy. For
example, buses designed to carry 47 passengers generally operated at less
than 50 percent capacity. These three factors--low occupancy, an extensive
route system, as well as numerous and over lapping pick-up points--indicate
that the bus system could be operated more efficiently. As many as    30
buses, which cost about $100,000 each per year to operate, could be
eliminated.

CONTRACTS AND PAST PRACTICES

        The Department has not seriously addressed the high costs of these
subsidies because of its interpretation of union contracts and continued
adherence to over 30 years of past practice. In discussions about possible
reductions in the amounts paid in subsidies, administrative personnel have
responded that the union contracts prohibit any changes to the services.
However, our review of these contracts showed only three firm requirements.
The Department is required to pay the remote area pay allowance of $5 or
$7.50 per day and must provide bus service to the test site from the Las
Vegas metropolitan area at an employee cost of $1 each way. In addition, the
union contract for the guards requires that ample housing be made available.
As of May 1, 1995, the number of guards at the test site has been reduced to
about 82. At this time, the Department must provide housing for only this
number of guards.
        The Department has continued its past practice of maintaining low
rates for housing and food services. In fact, the Department has held food
prices at the 1962 levels even though revenues from food sales did not cover
the cost of the food supplies. In addition, the Department has not
implemented all of its own reports' recommendations to change housing or bus
services; instead, it has adhered to past practices of occupancy for
convenience and maintaining an extensive route system while its workforce
continued to shrink.

        Another reason for the Department's adhering to these practices was
that, until recently, Defense Programs had supported much of the test site's
infrastructure, including the three subsidized services reviewed. Even when
nuclear testing was placed on hold and defense program dollars began to
decrease, the Department continued paying large subsidies for housing and
food services. In addition, it did not take appropriate steps to increase
the efficiencies of the bus system.

SUBSIDY COSTS

        By adhering to these past practices, the Department paid unreasonably
high subsidies of about $31 million in Fiscal Years 1993 and 1994. These
subsidies will continue to cost about $14 million annually. However, at
least $10 million of these annual costs could be eliminated by reducing
services, passing more costs to the users, and operating the bus service more
efficiently. By eliminating housing or by adjusting the rates to cover the
costs of that service, the Department could save about $1 million per year.
Additionally, by requiring the food services to operate on a break-even
basis, the Department could save an additional $6 million per year; that is,
the amount of the costs less the revenues for FY 1994. Finally, by
establishing a range for minimum occupancy and a central pick-up point, the
Department could reduce the number of buses needed as well as the extensive
and overlapping services. For example, at 90 percent occupancy or about 42
people per bus, the Department could reduce the number of buses to about 32
(1350/42). This reduction of 30 buses could save the Department about $3.0
million per year ($100,000 per bus per year) or $15 million over 5 years.



PART III

MANAGEMENT AND AUDITOR COMMENTS

     In responding to our initial draft report, the Acting Manager concurred
with the "spirit and intent" of the recommendations but did not agree with
presentation of the facts or the estimated monetary impact. A summary of
management's comments and our replies follows.

Subsidized Ancillary Services at the Nevada Test Site

Review Period and National Security

        Management Comments. Management was concerned that by including
Fiscal Years 1991 and 1992 in the scope of audit, the report failed to
recognize that nuclear testing continued through September 1992. Management
noted that a 1992 Presidential Decision Directive required the Department to
conduct an experimental program and maintain a readiness posture including a
cadre of skilled workers to resume nuclear testing within six months through
Fiscal Year 1995. Beginning with Fiscal Year 1996, the Directive further
required the Department to maintain a 2-3 year readiness posture. As a
result, management noted, it would be inaccurate to assume there is no
enduring stockpile stewardship mission or that events occurring in Fiscal
Year 1993 could have had an influence on the financial data for Fiscal Years
1991-1992.

        Auditor Comments. Fiscal Years 1991 and 1992 were included in the
audit scope so that we could determine trends in the cost of subsidies.
Management's comments on the Presidential Directive have been added to the
report. The report neither states nor implies, however, that there is no
longer a stockpile stewardship mission. Report conclusions are based,
rather, on the fact that nuclear testing no longer occurs.
Costs of Subsidies and Estimated Savings

        Management Comments. Management pointed out that the subsidies for
housing, food, and busing have always been directly coupled with subsistence
rates (remote area pay) under labor agreements. During the course of many
negotiations, the Department has been successful in countering union demands
for higher subsistence rates as a direct result of continued subsidies.
Therefore, projected savings of $10 million per year may not be attainable
because of termination cost of leased buses and potential increase in the
subsistence rates.

     Auditor Comments . We recognize that some of the estimated $10 million
in savings could be offset if labor unions successfully negotiate for a
higher subsistence rate. Our estimated savings of $10 million per year
assumes that the housing and food services would be operated on a break-even
basis and that additional bus service efficiencies are achieved.

Cost Reduction Initiatives

        Management Comments. Management stated that by combining subsidies
over a four-year period (two of which included nuclear testing), the report
fails to acknowledge the significant cost reduction initiatives already
instituted by the Department. The report further incorrectly implies,
according to management, that the Department instituted cost reduction
activities only as a consequence of the OIG review. Management provided the
following table to show that the annual cost of subsidies has been reduced by
about $2.6 million per year for FYs 1993 and 1994.

              Fiscal Year                Total Subsidies
                                           (Millions)

                FY   1991                    $17.9
                FY   1992                    $19.3
                FY   1993                    $16.7
                FY   1994                    $14.1

     The Department has recognized the need for further adjustments to these
subsidies and is pursuing cost reduction initiatives within the constraints
of the existing collective bargaining agreement and/or through appropriate
renegotiations with the labor unions now scheduled for September 1995.

     Auditor Comments . As noted earlier in the report, we are aware that
the Acting Manager is concerned about subsidies and is taking action to
reduce costs.     This report presents additional opportunities for cost
savings.

Housing

        Management Comments. The report notes that only about 14 percent of
the test site workforce used the housing services during September 1994.
Management stated that the percentage of workforce using housing services
does not have much bearing on the efficiency of the service and that the
occupancy rate, which is a more representative performance measure, was about
43 percent in May 1995. The Department is currently reviewing the need for
housing services, and as part of the renegotiation of the labor contracts
scheduled for September 1995, the Department
expects to pursue raising the rates to achieve full-cost recovery.

     Management also noted that $370,000 being spent for housing remodeling
includes replacement of damaged shower stalls, carpeting which could not be
repaired, and other related activities. Even if the dorms were closed, the
facilities would most likely be used as offices. The renovation costs would
be required regardless of housing requirements.

        Auditor Comments. The occupancy rates for FY 1994 and the first
quarter of FY 1995 have been added to the report. Further, management's
intended action to raise rates is responsive to our housing recommendation.

     As for the remodeling, with current downsizing, there is, in our
opinion, already adequate office space at the test site. Additionally, the
majority of the $370,000 was being spent on shower renovations, which would
not be necessary for office space.

Food Services

        Management Comments. Management believed that the comparison to Rocky
Flats and Lawrence Livermore National Laboratory food services costs was
fundamentally unsound. The test site is the only remote site in the
comparison. While the Department is prepared to renegotiate the subsidies
with the labor unions in September and will endeavor to achieve full-cost
recovery, management believes subsistence will likely increase substantially
if the subsidies are eliminated. Thus, the implication that all or a
significant part of these subsidies can be saved is factually incorrect.

        Auditor Comments .     The comparisons are valid because workers at
all three locations are restricted by time and distance from going to outside
establishments for meals. The Department's intent to achieve full-cost
recovery is responsive to our food service recommendation.

Busing Services

        Management Comments. Management stated that, similar to the housing
services, the percentage of the test site workforce which uses the busing
services does not have much bearing on the efficiency of the service. A more
representative performance measure would be the use rate. Since 1991, when
there were 96 total bus routes, the Department has reduced the number of
buses to 94, 82, and 63 in 1992, 1993, and 1994, respectively, to its current
number of 54 in 1995. (As noted earlier, there were 62 buses in service at
the time of our fieldwork.) Management believes the report fails to
acknowledge that significant progress has already been achieved and that the
cost to reduce buses below the FY 1995 level will result in greater costs
than to run the buses at the current usage level. The Department is,
however, committed to exploring a central bus depot and to further reduce the
number of buses as a consequence of formal contract renegotmations.

     Auditor Comments . Managements actions to date are positive and its
commitment to further reductions is responsive to our busing recommendations.

Summary

        Although disagreeing, as noted above, with our presentation of facts
and estimate of savings, management concurred with all recommendations.
Nevada's specific action plan is to address all subsidy issues and target
full cost recovery during contract negotiations scheduled for September 1995.
Management's intended actions are responsive to the recommendations.


                                      IG Report No. WR-B-95-08


CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as
possible to our customers' requirements, and therefore ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.      What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection would have been
helpful to the reader in understanding this report?

2.   What additional information related to findings and
recommendations could have been included in this report to assist management
in implementing corrective actions?


3.      What format, stylistic, or organizational changes might have
made this report's overall message more clear to the reader?


4.      What additional actions could the Office of Inspector
General have taken on the issues discussed in this report which would have
been helpful?


Please include your name and telephone number so that we may contact you
should we have any questions about your comments.


Name                                   Date
Telephone                              Organization

When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586-0948, or you may mail it to:
               Office of Inspector General (IG-1)
               Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of
the Office of Inspector General, please contact    Wilma Slaughter on (202)
586-1924.

 * * * *

continued footnote

footnote continues next page
